U.S. Department of Agriculture
 Office of Inspector General
       Midwest Region
         Audit Report




  CONTROLS OVER THE ACCESS,
    DISCLOSURE, AND USE OF
   SOCIAL SECURITY NUMBERS




              Report No.
              27601-29-Ch
              FEBRUARY 2003
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250


DATE:         February 26, 2003

REPLY TO
ATTN OF:     27601-0029-CH

SUBJECT:      Controls Over The Access, Disclosure, and Use of Social Security Numbers

TO:          Roberto Salazar
             Administrator
             Food and Nutrition Service

ATTN:        Lael Lubing
             Director, Grants Management Division


This report presents the results of our audit of the Controls Over the Access, Disclosure,
and Use of Social Security Numbers. The Food and Nutrition Service’s responses to the
official draft, dated January 16 and 21, 2003, are included in their entirety as exhibits B
and C, with excerpts and the Office of Inspector General’s position incorporated into the
Findings and Recommendations section of the report.

Based on the information contained in the responses, we have reached management
decisions on Recommendations Nos. 2, 4 and 5 in the report. Please follow your
agency’s internal procedures in forwarding documentation for final action to the Office of
the Chief Financial Officer.      We have not reached management decision on
Recommendations Nos. 1 and 3. Management decisions can be reached when the
Food and Nutrition Service provides the additional information outlined in the OIG
Position sections of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective action taken or planned and the timeframes for
implementation of those recommendations for which management decision has not yet
been reached. Please note that the regulation requires that management decisions be
reached on all findings and recommendations within a maximum of 6 months from the
date of report issuance, and final action to be taken within 1 year of each management
decision.


/s/

RICHARD D. LONG
Assistant Inspector General
 for Audit
                        EXECUTIVE SUMMARY
          CONTROLS OVER THE ACCESS, DISCLOSURE AND USE OF
                     SOCIAL SECURITY NUMBERS

                         AUDIT REPORT NO. 27601-29-Ch


                                      This report presents the results of our audit of
      RESULTS IN BRIEF                the Controls Over Access, Disclosure, and
                                      Use of Social Security Numbers (SSN’s). We
                                      performed this audit in conjunction with the
          President’s Council on Integrity and Efficiency (PCIE). The Social Security
          Administration’s (SSA) Office of Inspector General was the lead agency
          coordinating the audit. The audit was based on a Government Accounting
          Office study to determine how and to what extent Federal, State, and local
          Government agencies use individuals’ SSN’s and how they safeguard
          records and documents containing SSN’s. The objective of our audit was
          to assess the controls over the disclosure and use of SSN’s by third
          parties in the Food Stamp Program (FSP), one of the largest USDA
          programs using SSN’s.

            Our audit disclosed that Food and Nutrition Services’ (FNS) controls over
            the disclosure of SSN’s to third parties, contractors’ access and use of
            SSN’s, requirements placed on entities receiving SSN’s, and direct access
            to SSN’s by other organizations were in place and functioning. However,
            we found several instances at the State and county level where controls
            over computer access and physical access of SSN’s needed
            strengthening. Specifically, the States needed to limit access to SSN’s
            and prevent the possibility of identity theft from unauthorized disclosure of
            FSP SSN’s located in computer files or on written documents. We noted
            that two of four county offices visited had control weaknesses that allowed
            access to SSN’s through the computer system. We also noted that case
            files in two county offices were kept in unlocked drawers, file cabinets, and
            boxes.

                                      We recommended that guidance be issued to
  KEY RECOMMENDATIONS                 the Food and Nutrition Service Regional Office
                                      and State offices concerning access to
                                      confidential information in FSP databases, and
         that confidential information be secured according to internal procedures.




USDA/OIG-A/27601-29-Ch                                                            Page i
                                       FNS’ responses to the official draft report,
    AGENCY RESPONSE                    dated January 16 and 21, 2003, generally
                                       agreed with the audit findings and
                                       recommendations.

                                       Based on the FNS’ responses, management
        OIG POSITION                   decisions     can       be     reached        on
                                       Recommendations        Nos.     2,    4,    and
                                       5. Management decisions can be reached on
          the Recommendations Nos. 1 and 3 once FNS has provided us with the
          information specified in the OIG Position sections of the report. We have
          incorporated applicable portions of FNS’ responses, along with our
          position, in the Findings and Recommendations section of the report.
          FNS’ responses to the official draft report are included in their entirety as
          exhibits B and C of the audit report.




USDA/OIG-A/27601-29-Ch                                                         Page ii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS .......................................................................................i
   AGENCY RESPONSE ...............................................................................................ii
   OIG POSITION...........................................................................................................ii
TABLE OF CONTENTS................................................................................................iii
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................2
   SCOPE .......................................................................................................................2
   METHODOLOGY .......................................................................................................3
FINDINGS AND RECOMMENDATIONS .......................................................................5
   CHAPTER 1 ...............................................................................................................5
   SAFEGUARDING OF SOCIAL SECURITY NUMBERS ............................................5
   FINDING NO. 1 ..........................................................................................................5
   RECOMMENDATION NO. 1 ......................................................................................8
   RECOMMENDATION NO. 2 ......................................................................................9
   FINDING NO. 2 .........................................................................................................9
   RECOMMENDATION NO. 3 ....................................................................................11
   RECOMMENDATION NO. 4 ....................................................................................11
   RECOMMENDATION NO. 5 ....................................................................................12
   EXHIBIT A – SITES VISITED...................................................................................13
   EXHIBIT B – FNS’ NATIONAL OFFICE RESPONSE TO DRAFT REPORT...........14
   EXHIBIT C – FNS’ REGIONAL OFFICE RESPONSE TO DRAFT REPORT ..........15




USDA/OIG-A/27601-29-Ch                                                                                                 Page iii
                                           INTRODUCTION

                                            The Food Stamp Program (FSP) is
             BACKGROUND                     administered by the Food and Nutrition
                                            Service (FNS) through 7 Regional Offices, and
                                            in cooperation with 53 State welfare agencies.
                Through the State agencies, the FSP provides benefits to low-income
               people to buy eligible food in authorized retail food stores. In Fiscal Year
               (FY) 2001, the FSP provided benefits to 7.5 million households and
               17.3 million individuals each day.        Individuals must complete an
               application and meet certain income and resource criteria to receive
               benefits. It is through the application process that States obtain, verify,
               and maintain personal information for each applicant, including the social
               security numbers (SSN) for each household member participating in the
               FSP.

                  Due to concerns over the widespread collection and sharing of personal
                  information, and occurrences of identity theft, Congress asked the
                  Government Accounting Office (GAO) to study how and to what extent
                  Federal, State, and local government agencies use individuals’ SSN’s and
                  how they safeguard records and documents containing SSN’s. The
                  expanded use of the SSN as a national identifier provides a tempting
                  motive for many unscrupulous individuals to acquire a SSN and use it for
                  illegal purposes. While no one can fully prevent SSN misuse, Federal
                  agencies have some responsibility to limit the risk of unauthorized
                  disclosure of SSN information. In response, the Chairman of the House
                  Ways and Means Subcommittee on Social Security asked the Social
                  Security Administration and the President’s Council on Integrity and
                  Efficiency (PCIE) to look across Government at the way Federal agencies
                  disseminate and control the use of SSN information to third parties.

                  As a result of this request, the U.S. Department of Agriculture’s (USDA)
                  Office of Inspector General (OIG) initiated an audit of controls over the
                  access, disclosure, and use of SSN’s in the FSP, one of the largest USDA
                  programs to use SSN’s. The Privacy Act1 and other statutes regulate
                  FNS’ use of SSN’s, while State agencies are responsible for administering
                  the FSP in accordance with the Food Stamp Act2, Federal regulations3,
                  and their FNS approved Plans of Operation4.


1
  The Privacy Act of 1974, 5 U.S.C. §552A as amended
2
  The Food Stamp Act of 1977, 7 U.S.C. 2020
3
  7 CFR Parts 271 through 283
4
  The Food Stamp Act of 1977, 7 U.S.C. 2020(d)

USDA/OIG-A/27601-29-Ch                                                             Page 1
                     Specifically, with regard to collecting SSN information, Section 7 of the
                     Privacy Act requires any agency which requests an individual to disclose
                     his/her SSN to inform them whether the disclosure is mandatory or
                     voluntary, by what statutory authority or other authority the request is
                     made, and how the agency will use the number. With regard to
                     disclosures of SSN’s contained in Federal record systems (i.e., records
                     maintained on individuals), the Privacy Act controls the use and disclosure
                     of such personal information, but without specifically addressing SSN’s.
                     For each record system maintained by an agency, a Privacy Act notice
                     must be published. The notice must contain the routine uses and
                     disclosures of that system’s information, which will include the SSN if
                     relevant.

                     The Food Stamp Act of 1977, which governs the States, mirrors the
                     Privacy Act. The Food Stamp Act requires disclosure of SSN’s of all
                     household members as a condition of eligibility for participation in the FSP,
                     and the State agencies are authorized to use those SSN’s in the
                     administration of the FSP. Regulations require that each application form
                     notify households how their information and SSN will be used5. The Food
                     Stamp Act requires that States, through their Plans of Operation, provide
                     safeguards that limit the use or disclosure of information obtained from the
                     applicant households and enforcement of the provisions of this act6.

                     Additionally, the Food and Agricultural Resources Act of 1990 (P.L.101-
                     624), Section 1735, requires a SSN for the officers of food and retail
                     stores that redeem food stamps, and provides that the SSN’s maintained
                     will be confidential and may not be disclosed.

                                              Our objective was to assess the controls over
                  OBJECTIVES                  the access, disclosure, and use of SSN
                                              information by third parties. Specifically, we
                                              determined whether the FSP as a whole:
                   (1) Makes legal and informed disclosures of SSN’s to third parties; (2) has
                   appropriate controls over contractors’ access and use of SSN’s; (3) has
                   appropriate controls over other entities’ access and use of SSN’s; and
                   (4) has adequate controls over access to individuals’ SSN’s maintained in
                   its databases.

                                               We performed audit work at the FNS National
                      SCOPE                    Office in Alexandria, Virginia, and the FNS
                                               Midwest Regional Office in Chicago, Illinois.
                                               We judgmentally selected State offices for
                     testing including one where the FSP is State administered (Illinois) and
5
    7 CFR, Subtitle B, Chapter II, Part 273.2(b)(4)
6
    The Food Stamp Act of 1977, 7 U.S.C. 2020(e)(8)

USDA/OIG-A/27601-29-Ch                                                                    Page 2
           one where the FSP is county administered (Wisconsin). Within each
           State, we judgmentally selected 2 county or local offices, hereinafter
           referred to as county offices, based on location and size. (See exhibit A.)

           We followed the audit guide set forth by the Social Security Administration
           (SSA) Office of Inspector General. This guide focused on the 4 sections
           in the GAO program questionnaire completed by the FSP offices. The
           sections included questions numbered 39 through 63 and covered the
           following four areas: (1) Disclosures of individuals’ SSN’s to third parties;
           (2) controls over contractors’ access and use of SSN’s; (3) requirements
           placed on entities receiving SSN’s; and (4) controls over direct access to
           individuals’ SSN’s by other organizations.

           Our audit primarily covered calendar year 2001. However, calendar year
           2002 data was reviewed where deemed necessary to accomplish the
           audit objectives. Our audit work was conducted from March 5 through
           May 20, 2002.

           We conducted the audit in accordance with Government Auditing
           Standards established by the Comptroller General of the United States for
           performance audits.

                                       To accomplish our objectives we:
       METHODOLOGY

           •   Reviewed Federal laws and regulations related to the
               collection, use and privacy of SSN’s, including the Privacy Act and
               Food Stamp Act.

           •   Reviewed the State Plans of Operation, for the selected States.

           •   Reviewed applicable State policies, procedures, and rules and
               regulations governing the proper safeguarding of confidential
               information.

           •   Reviewed controls over the disclosure of, and access to, SSN
               information.

           •   Reviewed contracts or memoranda of understanding with third party
               contractors and subcontractors.

           •   Reviewed the controls over the destruction of sensitive information.

           •   Observed the physical security over sensitive information at the State
               and county offices.

USDA/OIG-A/27601-29-Ch                                                          Page 3
           •   Interviewed agency officials    responsible   for   controlling   SSN
                disclosure and access.

           •   Verified and updated key pieces of information provided on the GAO
               questionnaires by FSP offices.

           •   Obtained documentation supporting FSP offices’ answers to the GAO
               questionnaire, questions 39 through 63.




USDA/OIG-A/27601-29-Ch                                                       Page 4
                       FINDINGS AND RECOMMENDATIONS


     CHAPTER 1                SAFEGUARDING OF SOCIAL SECURITY NUMBERS

                       We found several instances at the county level where confidential
                       information, such as Social Security numbers (SSN’s), of Food Stamp
                       Program (FSP) applicants and participants were not sufficiently
                       safeguarded to protect against unauthorized use or disclosure. We noted
                       weaknesses in the controls over both computer access and physical
                       access, which are intended to safeguard the confidentiality and misuse of
                       FSP participants’ SSN’s. As a result, the SSN’s are susceptible to theft
                       and unauthorized use.

                                                  We found that computer users in two of four
                  FINDING NO. 1                   county offices reviewed had inappropriate
                                                  access to SSN’s due to weaknesses in the
    COMPUTER ACCESS TO SOCIAL                     controls over the granting and monitoring of
    SECURITY NUMBERS WAS NOT                      computer access. As a result, SSN’s were not
     ADEQUATELY SAFEGUARDED                       adequately safeguarded and kept confidential,
                                                  which created the potential for the use of
                                                  SSN’s in identity theft.

                       The Food Stamp Act requires State safeguards limiting the use and
                       disclosure of FSP information. Additional regulations require States to
                       have computer model plans,7 which maintain appropriate levels of
                       confidentiality of program information.

                       We obtained State security office lists of computer users in the two State
                       and four county offices tested.       Included on the lists were State and
                       county office employees, outside contractors or subcontractors, and other
                       third parties, such as outside researchers.        We included users with
                       access to the outside electronic benefits transfer system and to State
                       systems. We interviewed employees and contractors, spoke with county
                       security officials who approved access requests, State security officials
                       who implemented requests, and obtained information about specific job
                       duties to determine whether access was properly authorized and
                       appropriately limited to users’ duties on a need to know basis only.

                       Based on our review, we found examples of access granted to those who
                       were not authorized under Wisconsin State policy to use State or Social
7
    7 CFR 272.10(b)(3)(iii)

USDA/OIG-A/27601-29-Ch                                                                   Page 5
           Security Administration (SSA) databases containing individuals’ SSN’s,
           and found examples where access levels exceeded those necessary to
           perform job duties. For instance, in one county we determined that the
           security officer did not adequately review the computer access request
           forms, which were then forwarded to the State security office for
           activation. In addition, the State relied solely on the computer access
           form, which did not provide sufficient information or was not correctly
           completed for the State to determine if the access requested was
           appropriate. The State informed us that they generally rely on the county
           security officers’ signature as proof that a request for access is valid;
           therefore, unless a request is grossly inappropriate it will be activated. We
           also noted that the State security office does not periodically review or
           monitor current employees’, contractors’ or subcontractors’ computer
           access on a regular basis to ensure that access and security levels were
           accurate and updated properly and promptly. As a result of the various
           exceptions of inappropriate access, there is the potential for theft and
           unauthorized use of SSN’s.

           At the same county office as above, we judgmentally selected 24 of the
           county office’s 143 users to test computer access to FSP data in the State
           Client Assistance for Reemployment and Economic Support (CARES)
           system, and the county database within that system. We discovered that
           a contracted case manager who was not responsible for determining
           eligibility, had access to the SSA’s database through CARES, which was
           prohibited by the State’s data sharing agreement with the county. The
           county security officer confirmed that all 7 case managers, including the
           one in our sample, had access to the SSA’s database through CARES.
           He stated that he was unaware that access to the SSA’s database for
           outside contractors was prohibited by the data sharing agreement with the
           State.

           The county security officer was responsible for monitoring compliance of
           the agreement between the State and the county. In addition, he was the
           individual designated by the county to request access for individuals on
           staff and contractors from the county office. Once the access request
           forms were completed and signed, they were forwarded to the State
           security officers for review and activation. The State security officers were
           aware of the requirements of the data sharing agreement, however they
           were unaware that the case managers were contractors until we brought it
           to their attention during the audit. We determined that the computer
           access form did not identify the contractor to the State security officers, so
           they could limit their access. Six of the seven case managers wrote on
           the form that they worked for the Kenosha County Department of Human
           Services (DHS). However, the State still granted access to the one case
           manager, who correctly identified himself as a contractor. The State had
           no explanation for this and stated it was an oversight. If the State is

USDA/OIG-A/27601-29-Ch                                                           Page 6
           relying on the county security officer signatures and not evaluating each
           request form based on the information presented, they have no way of
           determining if request for access is valid.

           We also interviewed the selected case manager that had Statewide
           database inquiry. She stated her duties only required countywide access
           in the State’s database. The State security officer stated that all seven of
           the case managers, including the one tested in our sample, had Statewide
           inquiry access. The county security officer had previously stated that all
           case managers performed the same duties; therefore all seven would
           have been able to perform their job with the inquiry access limited to the
           county. The State security officer stated that Statewide access is granted
           unless the request form specifies countywide access only. However, the
           access request form does not specifically mention whether access should
           be limited to the county so county offices generally do not limit access
           when preparing a request.

           We also noted other instances where the users’ level of computer access
           exceeded that required to accomplish their duties. Although this additional
           access did not give the users access to any more SSN’s than they already
           had, we believe it is necessary for the State to ensure that the county
           offices have appropriate guidance and controls in place to ensure that
           access is commensurate with job requirements.

           A former county employee, now a private investigator, had access to FSP
           SSN’s in the State’s CARES system. The private investigator was self-
           employed and contracted to perform front-end verification of eligibility and
           fraud investigations as required.          When we asked about the
           appropriateness of the private investigator’s access to the database, the
           State security officer immediately revoked the investigator’s access and
           stated that this can occur when the State security officer cannot
           determine, based on the computer access request form if the user should
           have access or not. In some cases, the form may indicate that the user is
           a county employee when in fact they work for an outside contractor or
           subcontractor, because the request form does not adequately identify the
           user as an outside contractor. A user may also mistakenly report that they
           are working for the county when they are contracted to perform services
           for the county. In this case, the computer access form for the private
           investigator indicated she was working for DHS. The county security
           employee believed that the investigator required access to the FSP files
           because she performed duties in the administration and enforcement of
           the FSP. However as an outside contractor, the State security officer
           stated that no outside contract private investigator should be given access
           to CARES. The security officer also said that information required by the
           investigator should be obtained on a case-by-case basis from the
           employee who assigns the case to the investigator.

USDA/OIG-A/27601-29-Ch                                                         Page 7
           In addition to the private investigator’s access, we also found that a county
           Government user had access to FSP SSNs on the State’s data
           warehouse to produce statistical reports for the county Government. The
           State data sharing coordinator stated that they do not require a data
           sharing agreement with the county because it is a Government agency.
           The State could not explain why access to individual SSN’s was granted to
           the user, because the State security supervisor who granted this access
           has retired. The State security officer stated that access should not have
           been granted, since the county does not require the SSN’s to produce the
           statistical reports. Since our audit, the State has set up a separate
           computer user access for the county Government to receive one data file
           by file transfer that contains no personal identifiers, including SSN’s.

           Our review disclosed several instances where weaknesses in procedures
           and documentation of the computer access policies, created inappropriate
           computer access to SSN’s and created the opportunity for identity theft.


  RECOMMENDATION NO. 1

           Issue guidance to the Food and Nutrition Service Regional Offices
           (FNSRO) and State offices reminding them to ensure that access to
           confidential information in FSP databases is appropriate to the users
           duties and is sufficiently limited on a “need to know basis.”

           Agency Response

           FNS officials generally agreed with the finding. They will provide more
           details of planned actions at a later date.

           OIG Position

           To reach a management decision, FNS officials need to provide us with
           the guidance that will be provided to its regional offices, and the State
           offices, and the timeframe when this action will be completed.




USDA/OIG-A/27601-29-Ch                                                          Page 8
      RECOMMENDATION NO. 2

                      Follow-up with the State of Wisconsin to ensure that computer access
                      procedures, including computer access request forms, are appropriate to
                      the users assigned duties.

                      Agency Response

                      FNS Regional officials required the State to strengthen computer access
                      procedures and documents. The State also is implementing a training
                      program in this area.

                      OIG Position

                      We have accepted FNS’ management decision for this recommendation.
                      For Final Action, FNS needs to provide the Office of the Chief Financial
                      Officer (OCFO) with documentation that it required the State to strengthen
                      computer access procedures and documents.

                                          In one Wisconsin county office, we found that
           FINDING NO. 2                  desk drawers, file cabinets, and boxes of
                                          papers to be shredded were not properly
                                          secured and locked. The county security
     PHYSICAL ACCESS TO SOCIAL
                                          officer stated they did not have a policy to lock
     SECURITY NUMBERS WAS NOT
                                          their desk drawers or file cabinets and had not
            SAFEGUARDED
                                          considered the possible access to data by
                                          other employees and custodial staff a breach
              of physical security. In an Illinois county office, a file room without locks
              contained FSP files in 35 boxes and 300 file cabinets. As a result, SSN’s
              and other sensitive information were not adequately protected from
              unauthorized disclosure and possible use in identity theft.

                      The Food Stamp Act and Food Stamp Regulations8 require safeguards
                      which limit the use or disclosure of information obtained from applicant
                      households to persons directly connected with the administration or
                      enforcement of the FSP laws and regulations. In addition, regulations
                      state that recipients of information released under 7 CFR 272.1(c)(1) must
                      adequately protect the information against unauthorized disclosure to
                      persons or for purposes not specified9. Prudent business practice would
                      also suggest the use of locked desk drawers, file cabinets, or rooms as
                      the proper safeguard for participant information.
8
    7 CFR 272.1(c)(1)(i)
9
    7 CFR 272.1(c)(2)

USDA/OIG-A/27601-29-Ch                                                                  Page 9
           In Wisconsin, we observed specific examples of sensitive records being
           left out unlocked on desktops or open shelves after normal working hours.
           For example, 12 case files were left on a desk or credenza in each of two
           child support workstations and about 30 case files were left on open
           shelves in another child support workstation. Child support workers verify
           the paternity of every minor included in a food stamp assistance group,
           and the security officer indicated some of the files would contain food
           stamp SSN’s. We specifically noted that a data processing specialist,
           whom we had interviewed earlier in the day and is responsible for entering
           participant data into the county office’s master database, left documents
           containing SSN’s and other personal identifiers out on her desk in plain
           sight after she had left for the day.

           In the Economic Support work area, a caseworker stated that she always
           kept her food stamp monthly caseload report, which contains SSN’s for all
           her cases, on an open shelf. We confirmed this during our observations
           after hours.

           The county security officer stated they did not have a policy to lock their
           desk drawers or file cabinets because the majority of the workers were
           located beyond a locked door and the public was always escorted within
           those areas. He did not consider the presence of after-hours custodians
           and other employees or contractors, who should not have access to
           SSN's, to be a breach of controlled physical access.

           The Wisconsin security manual states: “It is the State’s responsibility to
           ensure that reasonable steps are taken to safeguard sensitive and
           confidential client information. Physical access means the ability to obtain
           paper reports located in an office.” The manual adds: Any computer
           printouts of information, case record information, etc., must not be left
           where others can access it. This information must be secured in locked
           files.”

           Continuing in the Wisconsin security manual: “If paper or printouts are
           used, items with client specific data should be secured when the user
           leaves their work area. By secured, a locked file cabinet may be used for
           very sensitive information (such as Food Stamp Program eligibility data) or
           a locked desk drawer might be suitable depending on how accessible the
           office is to non-staff. Confidential or sensitive information must not be left
           in a place for individuals who should not have access to it.” And “If using
           paper or printouts, items with client specific data should be secured when
           you leave the area. Any printout with confidential information (including
           screen prints) should be filed; it must be locked up. When they are
           discarded, they must be shredded.”



USDA/OIG-A/27601-29-Ch                                                          Page 10
                       The State/County Data Sharing Agreement states: “Protection Against
                       Unauthorized Access or Disclosure – the County agrees to comply with
                       the following measures to protect the confidentiality of any information
                       provided under this agreement and to protect such information against
                       unauthorized access or disclosure. The information shall be stored in a
                       place physically secure from access by unauthorized persons in
                       conformance with the State’s security system rules and State internal
                       security rules.”

                       We also noted an Illinois county office where case files were stored in
                       300 unlocked filing cabinets and 35 boxes within a storage room without a
                       lock. The local office administrator agreed that security over files was not
                       adequate. At a minimum, the storage room should be locked. Illinois
                       policy10 is broad and calls for effective control over the maintenance of
                       records. As a result of the lack of physical safeguarding of access to
                       SSN’s, there is the potential of theft of SSN’s, unauthorized disclosure,
                       and identity theft.


      RECOMMENDATION NO. 3

                       Issue guidance to the FNSROs, and State offices reminding them to
                       ensure that data such as SSNs is properly secured, according to internal
                       procedures.

                       Agency Response

                       FNS officials generally agreed with the finding. They will provide more
                       details of planned actions at a later date.

                       OIG Position

                       To reach a management decision, FNS officials need to provide us with
                       the guidance that will be provided to its regional offices, and the State
                       offices, and the timeframe when this action will be completed.


      RECOMMENDATION NO. 4

                       Follow-up with the State of Wisconsin to ensure county offices’
                       compliance with State security requirements over FSP SSN’s, according
                       to internal procedures.

10
     Illinois Administrative Directive No. 01.05.04.030 effective 10/01/01

USDA/OIG-A/27601-29-Ch                                                                    Page 11
           Agency Response

           The State is publishing a joint operation memorandum for all authorized
           users of public assistance program data on CARES. The memorandum is
           a policy statement that reiterates Wisconsin’s requirements for
           safeguarding access to sensitive records.

           OIG Position

           We have accepted FNS’ management decision for this recommendation.
           For Final Action, provide documentation to OCFO that the State has
           issued the memorandum.



  RECOMMENDATION NO. 5

           Follow-up with the State of Illinois to ensure county offices’ compliance
           with State security requirements over FSP SSN’s, according to internal
           procedures.

           Agency Response

           The Department of Human Services has issued two new Administrative
           Directives on the subject of employee conduct, both of which cover
           security issues. The Office reviewed during the audit has since moved
           locations and now has a locked file room.

           OIG Position

           We have accepted FNS’ management decision for this recommendation.
           For Final Action, provide documentation to OCFO that the State has
           issued the memorandums.




USDA/OIG-A/27601-29-Ch                                                     Page 12
EXHIBIT A – SITES VISITED


                        Office                                Location
Food and Nutrition Service Headquarters   Alexandria, Virginia
FNS Midwest Regional Office               Chicago, Illinois
Illinois State Office                     Springfield, Illinois
Sangamon County Local Office              Springfield, Illinois
Lower North (Cook County) Local Office    Chicago, Illinois
Wisconsin State Office                    Madison, Wisconsin
Kenosha County Department of Human
                                          Kenosha, Wisconsin
Services
Richland County Health & Human Services   Richland Center, Wisconsin




USDA/OIG-A/27601-29-Ch                                                   Page 13
EXHIBIT B – FNS’ NATIONAL OFFICE RESPONSE TO DRAFT REPORT




USDA/OIG-A/27601-29-Ch                             Page 14
EXHIBIT C – FNS’ REGIONAL OFFICE RESPONSE TO DRAFT REPORT




USDA/OIG-A/27601-29-Ch                             Page 15
USDA/OIG-A/27601-29-Ch   Page 16
Informational copies of this report have been distributed to:

Office of the Chief Financial Officer
       Director, Planning and Accountability Division (1)
Administrator, FNS
       Through Agency Liaison Officer, FNS (8)
General Accounting Office (1)
Office of Management and Budget (1)
